App. 1
RESPONDENT’S APPENDIX
20 United States Code § 1415. Procedural safeguards
(a)

Establishment of procedures

Any State educational agency, State agency, or local educational agency that receives assistance under this
subchapter shall establish and maintain procedures in
accordance with this section to ensure that children
with disabilities and their parents are guaranteed procedural safeguards with respect to the provision of a
free appropriate public education by such agencies.
(b)

Types of procedures

The procedures required by this section shall include
the following:
...
(6) An opportunity for any party to present a
complaint –
(A) with respect to any matter relating to
the identification, evaluation, or educational
placement of the child, or the provision of a
free appropriate public education to such child;
and
...

App. 2
(f )

Impartial due process hearing
(1)

In general
(A)

Hearing

Whenever a complaint has been received under subsection (b)(6) or (k), the parents or the
local educational agency involved in such
complaint shall have an opportunity for an
impartial due process hearing, which shall be
conducted by the State educational agency or
by the local educational agency, as determined
by State law or by the State educational
agency.
...
(i)

Administrative procedures
(1)

In general
(A)

Decision made in hearing

A decision made in a hearing conducted pursuant to subsection (f ) or (k) shall be final, except that any party involved in such hearing
may appeal such decision under the provisions of subsection (g) and paragraph (2).
(B)

Decision made at appeal

A decision made under subsection (g) shall be
final, except that any party may bring an action under paragraph (2).

App. 3
(2)

Right to bring civil action
(A)

In general

Any party aggrieved by the findings and decision made under subsection (f ) or (k) who does
not have the right to an appeal under subsection (g), and any party aggrieved by the findings and decision made under this subsection,
shall have the right to bring a civil action with
respect to the complaint presented pursuant
to this section, which action may be brought
in any State court of competent jurisdiction or
in a district court of the United States, without regard to the amount in controversy.
...
(l)

Rule of construction

Nothing in this chapter shall be construed to restrict
or limit the rights, procedures, and remedies available
under the Constitution, the Americans with Disabilities Act of 1990, title V of the Rehabilitation Act of
1973, or other Federal laws protecting the rights of
children with disabilities, except that before the filing
of a civil action under such laws seeking relief that is
also available under this subchapter, the procedures
under subsections (f ) and (g) shall be exhausted to the
same extent as would be required had the action been
brought under this subchapter.

